CERTIFICATE OF SERVICE
I hereby certify that I am a member of the bar of the Supreme
Court of the United States, and that on this 19th day of August, 2019, I
have caused all parties requiring service in this matter to be served
with a copy of the accompanying Application for Extension of Time to
Petition for a Writ of Certiorari, both by email and by Express Mail
with postage prepaid, to the addresses listed below:
Counsel for Named Plaintiffs-Appellees and the Class:
Beth Ellen Terrell, Esq.
Adrienne D. McEntee, Esq.
Terrell Marshall Law Group PLLC
936 North 34th Street, Suite 300
Seattle, WA 98103
bterrell@terrellmarshall.com
amcentee@terrellmarshall.com
Keith J. Keogh, Esq.
Keogh Law, LTD
55 West Monroe Street, Suite 3390
Chicago, IL 60603
keith@keoghlaw.com
Joseph A. Fitapelli, Esq.
Brian Scott Schaffer, Esq.
Fitapelli & Schaffer, LLP
475 Park Avenue South, 12th Floor
New York, NY 10016
jfitapelli@fslawfirm.com
bschaffer@fslawfirm.com
1

Joseph J. Siprut, Esq.
Siprut PC
17 North State Street, Suite 1600
Chicago, IL 60602
jsiprut@siprut.com
Bradley K. King, Esq., Adhoot & Wolfson, PC
10728 Lindbrook Drive
Los Angeles, CA 90024
bking@ahdootwolfson.com
Counsel for Defendants-Appellees American Eagle Outfitters, Inc. &
AEO Management Co.
Craig Joel Mariam, Esq., Gordon & Rees, LLP
633 West 5th Street, 52nd Floor
Los Angeles, CA 90071
cmariam@gordonrees.com
Richard T. Victoria, Esq.
Gordon & Rees, LLP
707 Grant Street, Suite 3800
Pittsburgh, PA 15219
rvictoria@grsm.com
rvictoria@gordonrees.com
Counsel for Experian Marketing Solutions, Inc.:
Meir Feder, Esq.
Jones Day
250 Vesey Street
New York, NY 10281
mfeder@jonesday.com
2

